Ifthis opinion indicates that it is “FOR PUBLICATION, ” it is subject to
revision untilfinal publication in the Michigan Appeals Reports.

f
^A
STATE OF MICHIGAN
COURT OF APPEALS

9

In re SOLOMON ADU-BENIAKO, M.D.

DEPARTMENT OF LICENSING AND
REGULATORY AFFAIRS,

UNPUBLISHED
May 14, 2020

Petitioner-Appellee,
No. 348668
Board of Medicine
LC No. 18-007018

v
SOLOMON ADU-BENIAKO, M.D.,
Respondent-Appellant.

In re SOLOMON ADU-BENIAKO, M.D.

DEPARTMENT OF LICENSING AND
REGULATORY AFFAIRS,
Petitioner-Appellee,
No. 349754
LARA Bureau of Professional
Licensing
LC No. 18-002838

v

SOLOMON ADU-BENIAKO, M.D.,
Respondent-Appellant.

Before: Cavanagh, P.J., and Sawyer and Riordan, JJ.
Per Curiam.

-1-

In this consolidated appeal,1 respondent, Solomon Adu-Beniako, M.D., appeals as of right
two administrative decisions: (1) the Board of Medicine’s Disciplinary Subcommittee’s (DSC)
suspension of respondent’s license to practice medicine for a minimum of six months and one day
for violating MCL 333.16221(a) (violation of general duty) and MCL 333.16221(b)(7)
(incompetence); and (2) The Board of Pharmacy Disciplinary Subcommittee’s (DSC) revocation
of respondent’s controlled-substance and drug-control-location license for violating MCL
333.731 l(l)(e) (failure to maintain effective controls against diversion) and MCL 333.7311(1 )(f)
(noncompliance with applicable laws). Because the challenged legal error was not substantial and
because substantial evidence supports the Board ofPharmacy’s findings and conclusions regarding
respondent’s pharmaceutical violations, we affirm.
I. BACKGROUND
A. ADMINISTRATIVE COMPLAINTS
Data from the Michigan Automated Prescription System (MAPS), a statewide database
that collects data available to prescribers about all controlled substances dispensed, showed the
frequency of respondent’s prescriptions for hydrocodone with acetaminophen, promethazine with
codeine, one-milligram alprazolam, and oxycodone. In filing two administrative complaints
against respondent, petitioner, the Bureau of Professional Licensing within the Department of
Licensing and Regulatory Affairs, produced aggregate MAPS data about respondent’s total
prescriptions, and it summarized the medical records of six of respondent’s patients, BS, JJ, LL,
MO, MB, and SK, to illustrate various allegations, including that respondent did not justify
treatment decisions, did not adequately conduct imaging or testing to investigate patients’
conditions, did not adequately monitor patients taking opioids, did not evaluate the continued need
for opioid treatment, and did not document whether the treatment was effective. Petitioner further
alleged that respondent often prescribed the same opioid medications at the same dosages to
numerous patients, showing that he did not implement individualized treatment plans.
The Board of Medicine’s complaint alleged that respondent violated MCL 333.16221(a)
for violating a general duty, MCL 333.16221(b)(1) for incompetence, and MCL 333.16221(c)(fy)
for prescribing a controlled substance without a legitimate medical purpose. MCL 333.16221
provides in pertinent part:
Subject to section 16221b, the department shall investigate any allegation
that 1 or more of the grounds for disciplinary subcommittee action under this
section exist, and may investigate activities related to the practice of a health
profession by a licensee, a registrant, or an applicant for licensure or registration.
The department may hold hearings, administer oaths, and order the taking of
relevant testimony. After its investigation, the department shall provide a copy of
the administrative complaint to the appropriate disciplinary subcommittee. The

i

In re Solomon Adu-Beniako, MD, unpublished order of the Court of Appeals, entered August 2,
2019 (Docket Nos. 348668 and 349754).

-2-

disciplinary subcommittee shall proceed under section 16226 if it finds that 1 or
more of the folldwing grounds exist:
(a) Except as otherwise specifically provided in this section, a violation of
general duty, consisting of negligence or failure to exercise due care, including
negligent delegation to or supervision of employees or other individuals, whether
or not injury results, or any conduct, practice, or condition that impairs, or may
impair, the ability to safely and skillfully engage in the practice of the health
profession.
(b) Personal disqualifications, consisting of 1 or more of the following:
(/) Incompetence.
*

(c) Prohibited acts, consisting of 1 or more of the following:

(iv) Obtaining, possessing, or attempting to obtain or possess a controlled
substance as defined in section 7104 or a drug as defined in section 7105 without
lawful authority; or selling, prescribing, giving away, or administering drugs for
other than lawful diagnostic or therapeutic purposes.
“Incompetence” is defined as “a departure from, or failure to conform to, minimal standards of
acceptable and prevailing practice for a health profession, whether or not actual injury to an
individual occurs.” MCL 333.16106(1).
The Board of Pharmacy’s complaint alleged that respondent violated MCL 333.731 l(l)(e)
for failing to maintain effective controls against diversion of controlled substances and MCL
333.731 l(l)(f) for failing to prescribe medications in good faith, contrary to MCL 333.7405(l)(a).
MCL 333.7331 l(l)(e) and (l)(f) provide:
(1) A license under section 7306 to manufacture, distribute, prescribe, or
dispense a controlled substance may be denied, suspended, or revoked or a licensee
may be fined, reprimanded, ordered to perform community service or make
restitution, or placed on probation by the disciplinary subcommittee upon a finding
that an applicant for licensure or a licensee is subject to any of the following:

(e) The applicant or licensee has not maintained effective controls against
diversion of controlled substances to other than legitimate and professionally
recognized therapeutic, scientific, or industrial uses.
(f) The applicant or licensee is not in compliance with applicable federal,
state, and local laws.

-3-

MCL 333.7405(l)(a) states:
(1) A person shall not do any of the following:
(a) If the person is licensed by the administrator under this article,
distribute, prescribe, or dispense a controlled substance in violation of section 7333.
MCL 333.7333 sets forth the conditions for determining whether a controlled substance was
prescribed in good faith. Indications that prescriptions for controlled substances were not made in
good faith include, but are not limited to, the following factors:
(a) Lack of consistency in the doctor-patient relationship.
(b) Frequency of prescriptions for the same drug by 1 prescriber for larger
numbers of patients.
(c) Quantities beyond those normally prescribed for the same drug.
(d) Unusual dosages.
(e) Unusual geographic distances between patient, pharmacist, and
prescriber. [MCL 333.7333(1).]
Petitioner summarily suspended respondent’s controlled-substance license and drug-controllocation licenses. An administrative law judge (ALJ) subsequently dissolved the summary
suspension in March 2018.
B. TESTIMONY
The ALJ used Center for Disease Control (CDC) guidelines to evaluate respondent’s
prescription practices. The CDC advised clinicians to assess “risk factors for opioid-related
harms” before prescribing opioid medications to patients. Clinicians should review a patient’s
history of controlled substance prescriptions using a state prescription drug monitoring program
to see if patients were receiving opioid prescriptions. The CDC advised clinicians to discuss the
risks and benefits of opioid treatment with patients before beginning treatment and periodically
while continuing treatment. Opioids are assigned a morphine equivalency, called a morphine
milligram equivalent (MME). The total assigned MME value is divided by the number of days a
prescription covers to arrive at MME per day. The CDC identified 50 MMEs per day as a higher
dosage and warned clinicians to assess the risks and benefits carefully when increasing dosage to
50 MMEs and to avoid increasing dosages to 90 MMEs per day, which is correlated with a risk of
overdose.
David Nicolaou, M.D., an emergency physician who was qualified to testify as an expert
in the general practice of medicine, and Janice Waldmiller, a pharmacist and a pharmacy
specialist/investigator for petitioner who was qualified to testify as an expert in pharmacy, testified
in support of the allegations in the complaints.

-4-

i. RESPONDENT’S GENERAL PRESCRIPTION PRACTICES
Waldmiller began investigating respondent’s prescription practices in the spring of 2017
because of the number of respondent’s prescriptions for hydrocodone with acetaminophen and
promethazine with codeine, which are two highly abused and diverted drugs. The top five highly
abused and diverted substances were 30-milligram oxycodone, hydrocodone products, onemilligram and two-milligram alprazolam, carisoprodol, and promethazine with codeine.
Waldmiller stated that these statistics led her to question why so many of respondent’s patients
were receiving the same medications, particularly promethazine with codeine and hydrocodone
with acetaminophen. During the investigation, respondent told Waldmiller that he prescribed the
two medications together because many of his patients had coughs from smoking and from air
pollution in Detroit. Waldmiller and Dr. Nicolaou both testified that promethazine with codeine
is intended to treat coughs only in the short term. Short-term use meant less than two weeks, such
as in connection with the flu. Waldmiller stated that other products can be used to treat coughs,
and that it is important to understand the source of cough to treat it optimally. In addition,
hydrocodone and promethazine with codeine both treated coughs the same way, so concurrent
prescriptions were unnecessarily duplicative. Dr. Nicolaou also opined that promethazine with
codeine offered no added benefit when prescribed in combination with hydrocodone. Respondent
agreed that promethazine with codeine was appropriate for short-term use, but he believed that this
guideline should not supersede a doctor’s clinical judgment. Respondent testified that
promethazine is an antihistamine that keeps the airway dry and open, while codeine suppresses
cough by working on the mu two receptor in the lung, and hydrocodone treats pain by working on
the mu one receptor associated with pain. Respondent further testified that considering the CDC
guidelines, his practice was to prescribe a maximum of 30 MMEs per day to avoid the risk of
overdose. Dr. Nicolaou and Waldmiller testified that limiting MMEs was not an effective control
against diversion because low MME substances, such as promethazine with codeine, were still
abused and diverted.
Krystalla Cross, a medical assistant in respondent’s practice from September 2016 through
October 2017, testified that several patients claimed to have a cough but did not sound authentic.
Cross also stated that respondent saw multiple patients who were unrelated at one time. Cross also
saw respondent write prescriptions before he saw the patient. Dr. Nicolaou testified that seeing
groups of patients together outside the context of group therapy and writing prescriptions before
seeing a patient fell below the standard of care. Respondent called three employees to rebut
Cross’s testimony. Akeela Noel, a medical assistant and the office manager, and Francina Kirk, a
medical assistant, both denied that respondent saw patients in groups or wrote prescriptions before
seeing patients. Uche Oboa, a nurse practitioner, also denied that respondent saw groups of
patients together.
ii. RESPONDENT’S SIX PATIENTS IDENTIFIED IN THE COMPLAINTS
Waldmiller stated that the patients whose records were reviewed were selected on the basis
of prescriptions for highly abused and diverted drugs. For example, 70% of respondent’s
prescriptions were for hydrocodone and promethazine with codeine, so patients receiving both
prescriptions were randomly selected for review of their medical records. Waldmiller did not
contact any of respondent’s patients while investigating this case.

-5-

Dr. Nicolaou was concerned about the similarity of dosage and frequency of opioid
prescriptions across patients with little variation, which Dr. Nicolaou interpreted as reflecting a
lack of individualization of treatment plans and inadequate monitoring. Dr. Nicolaou also saw no
indication that respondent used the MAPS reports he obtained for patients. For example,
respondent did not re-evaluate treatment plans in light of MAPS reports showing red flags for
abuse or diversion, which included obtaining multiple prescriptions from multiple providers.
Respondent did not appear to be aware of the multiple prescriptions, which Dr. Nicolaou opined
fell below the standard of care.
Respondent testified that he reviewed MAPS reports when he reviewed a patient’s chart
before every patient visit. Respondent claimed that if the MAPS report raised a red flag, he
discussed it with the patient. Dr. Nicolaou opined that a doctor’s notes should mention review of
a MAPS report and how the information was considered. Respondent agreed that it was important
to know what other controlled substances a patient was taking and if a patient saw multiple
providers in a short period of time. Respondent stated that a patient could have legitimate reasons
for seeing multiple prescribes and that the quantity of medication prescribed was more important
than the number of prescriptions. In addition, he stated that patients sometimes went to different
pharmacies because of varied insurance coverage or varying prices, and he asked patients why
they filled prescriptions at multiple pharmacies when a MAPS report revealed that data, without
accusing a patient of wrongdoing.
Respondent testified that he saw patient BS four times, in September 2016, October 2016,
November 2016, and December 2016, after BS had been in a car accident in August 2016. MAPS
data for patient BS showed 17 prescriptions from seven prescribers filled at eight pharmacies.
Respondent stated that BS’s MAPS data was consistent with the August 2016 car accident.
Respondent testified that he saw patient JJ in November 2016 and December 2016. MAPS
data for patient JJ showed 43 prescriptions from 11 prescribers filled at 10 pharmacies. In 2016,
JJ filled prescriptions written by a previous provider for oxycodone in February 2016,
hydrocodone with acetaminophen in March 2016, oxycodone in July 2016, carisoprodol in July
2016, oxycodone in October 2016, and oxycodone in November 2016. Also, JJ filled a prescription
for oxycodone in December 2016 from the previous provider after seeing respondent. Respondent
prescribed JJ hydrocodone with acetaminophen at 20 MMEs per day and promethazine with
codeine at 4.5 MMEs per day at each visit. Respondent reduced the quantity of hydrocodone
tablets prescribed from 90 to 60, which was two tablets per day, to compensate for the morphine
equivalency of the promethazine with codeine. The notes for both visits state that respondent
discussed the risks and benefits of opioid treatment with JJ.
Respondent saw patient LL in September 2016, October 2016, and November 2016.
MAPS showed that LL had 44 prescriptions from eight prescribers filled at 10 pharmacies. Before
seeing respondent, LL received a prescription for alprazolam in March 2016, two prescriptions for
oxycodone in April 2016; and prescriptions for acetaminophen with codeine and oxycodone in
May 2016; acetaminophen with codeine in June 2016; alprazolam, hydrocodone with
acetaminophen, and acetaminophen with codeine from two different prescribers in July 2016; and
acetaminophen with codeine in August 2016. Respondent stated that he had run a MAPS report
during the first visit, showing that LL was taking Tylenol with codeine, which respondent did not
want him to take and which respondent discussed with LL before prescribing hydrocodone with

-6-

acetaminophen and promethazine with codeine. Respondent prescribed hydrocodone with
acetaminophen at the October visit. The notes for both visits stated that respondent discussed the
risks and benefits of narcotics prescribed. Respondent confirmed that a urinalysis run on a sample
obtained from LL on his last visit in November 2016 was negative for substances even though
respondent had given LL a 30-day prescription for Norco in October 2016. Respondent stated that
the substance would not necessarily show up on the urinalysis, depending on when the patient took
the drug or other medications that can speed metabolism. Respondent testified that he would
normally speak with patients about test results at their next visit, but he did not have that
opportunity with LL because he did not return for any future visits.
Respondent saw patient MO in September 2016, October 2016, and December 2016.
MAPS data showed that MO had 95 prescriptions from 10 prescribes filled at 14 pharmacies.
According to the MAPS report, MO obtained from several previous providers prescriptions for
acetaminophen with codeine, hydrocodone with acetaminophen, and alprazolam in October 2015;
oxycodone and alprazolam in November 2015; promethazine with codeine, alprazolam, and
oxycodone in December 2015; oxycodone with acetaminophen and alprazolam in January 2016;
oxycodone and alprazolam in February 2016; acetaminophen with codeine in April 2016;
acetaminophen with codeine in June 2016; oxycodone, alprazolam, and oxymorphone in July
2016; acetaminophen with codeine in August 2016; and lorazepam in September 2016.
Respondent wrote MO prescriptions for hydrocodone with acetaminophen and promethazine with
codeine, and he discussed with MO the risks and benefits of narcotics.
Respondent testified that he saw patient MB in September 2016, October 2016, November
2016, and December 2016. MAPS data showed that MB had 112 prescriptions from 13 prescribers
filled at 17 pharmacies. Also, it showed that, in the year preceding her first prescription written
by respondent, MB obtained prescriptions for alprazolam, acetaminophen with codeine,
promethazine with codeine, and oxycodone from two different prescribers in August 2015;
alprazolam, oxycodone, and promethazine with codeine in November 2015; hydrocodone with
acetaminophen in January 2016; alprazolam, promethazine with codeine, and oxycodone in
February 2016; alprazolam and hydrocodone with acetaminophen in March 2016; and
buprenorphine in July 2016. Respondent saw the buprenoiphine prescription, and he claimed that
he spoke with MB about it at her first visit because it was a component of suboxone, which is used
to treat addiction, but his notes did not reflect this conversation. It is not clear from respondent’s
testimony if he discussed with MB her prior prescriptions for promethazine with codeine.
Respondent stated that he ordered drug testing for MB at the September visit, but she did not
provide a sample for testing until November. The test results were negative. Respondent
prescribed MB hydrocodone with acetaminophen at the September, October, and November visits,
and he prescribed her promethazine with codeine at the October, November, and December visits.
The notes state that he discussed the risks and benefits of opioid medications at the October,
November, and December visits.
Respondent saw patient SK in September 2016 and October 2016. MAPS data showed
that SK had 186 prescriptions from 15 prescribers filled at 21 pharmacies. In the year preceding
his first visit with respondent, SK had more than 22 prescriptions for carisoprodol, 13 prescriptions
for hydrocodone with acetaminophen, and 18 prescriptions for promethazine with codeine from at
least five different providers. Respondent prescribed SK hydrocodone with acetaminophen at the
first visit, and respondent’s notes reflected a discussion about the risks of opioid treatment.
-7-

Respondent stopped seeing SK after receiving a letter from petitioner notifying respondent that
SK was seeing multiple doctors and advising respondent to refer SK to a pain clinic or addiction
specialist.
iii. RESPONDENT’S 10 UNIDENTIFIED PATIENTS
Waldmiller testified about MAPS data covering a two-year period from May 2016 to May
2018 for a set of 10 unidentified patients whom respondent acknowledged were his patients. For
the first patient, respondent prescribed hydrocodone-acetaminophen as well as promethazine with
codeine every month from the end of October 2016 through the end of December 2017, before
respondent’s summary suspension on January 19, 2018. Respondent’s next prescription for the
patient was for hydrocodone with acetaminophen in April 2018 after the summary suspension was
dissolved. Waldmiller questioned whether the patient needed the prescription after going without
it for three months. The MAPS report showed that the patient had different providers and filled
prescriptions at 10 different pharmacies, which were red flags for diversion and abuse.
Waldmiller testified that the second patient also had prescriptions for hydrocodone with
codeine and promethazine with codeine written by respondent throughout 2017 and a three-month
gap without receiving substances. In addition to the patient’s use of multiple pharmacies to fill
multiple prescriptions, Waldmiller noted that this patient was seeing other providers in addition to
respondent from July 2017 to September 2017, raising the same concerns about the possibility of
diversion and abuse.
Waldmiller testified that the third patient received prescriptions for hydrocodone with
acetaminophen and promethazine with codeine from respondent from October 2016 through
January 2018 and resumed receiving a prescription from respondent for hydrocodone with
acetaminophen in April 2018. This patient saw another provider in February 2018, but respondent
resumed prescribing hydrocodone with acetaminophen at a higher quantity and strength than the
intervening provider.
Waldmiller testified that the fourth patient received prescriptions for hydrocodone with
acetaminophen and promethazine with codeine from respondent from January 2017 through
January 2018, and this patient saw other providers at the same time. The fifth patient received
prescriptions from respondent for hydrocodone with acetaminophen and promethazine with
codeine, in addition to carisoprodol, from January 2017 through January 2018, with a three-month
gap with no prescriptions until April 2018, when respondent resumed prescribing a lower dosage
of hydrocodone with acetaminophen.
The sixth patient received prescriptions from respondent for hydrocodone with
acetaminophen and promethazine with codeine from November 2016 through December 2017.
After a three-month gap, respondent resumed prescribing hydrocodone in April 2018.
Waldmiller testified that respondent wrote prescriptions for hydrocodone with
acetaminophen and promethazine with codeine for the seventh patient from September 2016
through December 2017 and resumed writing a hydrocodone with acetaminophen prescription in
April 2018. This patient was prescribed a controlled substance from another provider in January
2018.

-8-

Waldmiller stated that the eighth patient received prescriptions for hydrocodone with
acetaminophen and promethazine with codeine from respondent from October 2016 through
January 2018, a prescription from another provider in February 2018, and a prescription for
hydrocodone with acetaminophen from respondent at the end of March 2018. The ninth patient
received prescriptions from respondent for hydrocodone with acetaminophen and promethazine
with codeine from December 2016 through January 2018, and received the next prescription for
hydrocodone with acetaminophen from respondent in April 2018 after a three-month gap. This
patient also had prescriptions filled at seven different pharmacies in two years.
Waldmiller stated that the final patient received prescriptions for hydrocodone with
acetaminophen and promethazine with codeine from September 2016 through December 2017, no
prescriptions for three months, and a prescription for hydrocodone with acetaminophen in April
2018. This patient had prescriptions filled at five different pharmacies.
Waldmiller testified that respondent had not prescribed promethazine with codeine since
the dissolution of the summary suspension in March 2018. Between the March 23, 2018
dissolution and August 2018, a MAPS report run by Waldmiller showed that prescriptions for
hydrocodone with acetaminophen constituted 87% of respondent’s total prescriptions, which was
concerning to Waldmiller because it raised the question whether respondent was providing
properly individualized treatment. Dr. Nicolaou echoed this concern. Waldmiller stated that there
were dozens of different pain medications and that pain specialists typically prescribed a wider
range of pain medications than respondent. Respondent stated that doctors often prescribe similar
medications that they are comfortable prescribing.
C. ALJ’S PROPOSAL FOR DECISION
The ALJ issued a proposal for decision, in which the AU found no support for general
allegations that respondent’s notes reflected inadequate diagnoses, monitoring, and treatment of
patients except in relation to risk monitoring and concurrent prescriptions for benzodiazepines and
opiates. The ALJ found that respondent did not adequately justify concurrent prescriptions for
benzodiazepines and opiates given to two patients on five occasions, contrary to the CDC
guidelines’ recommendation to avoid prescribing the two substances together. The ALJ further
found that respondent did not consider or discuss with MB, JJ, SK, LL, and MO the risk of abusing
or diverting opioids, in violation of CDC guidelines. The ALJ found no support for the allegation
that respondent was diverting controlled substances to the illegal market. In relation to this finding,
the ALJ declined to consider the uncorroborated MAPS reports showing aggregated data for all of
respondent’s prescriptions, noting that petitioner did not investigate the information or interview
any of respondent’s patients. The AU considered only the MAPS data for the six individual
patients whose charts were introduced into evidence.
i. BOARD OF MEDICINE CASE
In the Board of Medicine case, the ALJ concluded that respondent violated MCL
333.16221(a) and (b)(0, as alleged in Counts 1 and 2, but not MCL 333.16221(c)(/v). The ALJ
found the violations supported by evidence showing that respondent prescribed an opiate and a
benzodiazepine concurrently without adequate justification and by prescribing opioids to five
patients without addressing risk factors for opioid-related harms as evidenced by information in
-9-

their MAPS reports. In reaching this conclusion, the ALJ summarized the legal standard as
follows:
It is impossible to discern a meaningful difference between (1) violation of
general duty, (2) negligence, (3) failure to exercise due care, and (4) failure to
conform to minimal standards of acceptable and prevailing practice. The verbiage
is different, but all describes the same thing - breach of duty. Counts 1 and 2 of the
medical complaint are essentially the same breach-of-duty charge, and this opinion
treats them as a single charge.
The Board of Medicine DSC accepted the AUs findings of fact and conclusions of law and ordered
the suspension of respondent’s license to practice medicine for a minimum of six months and one
day.
ii. BOARD OF PHARMACY CASE
In the Board of Pharmacy case, the ALJ concluded that respondent violated MCL
333.731 l(l)(e) by failing to maintain effective controls against diversion when he prescribed
opioids to five patients without addressing opioid-related risk factors. The ALJ concluded that
petitioner did not establish that respondent violated MCL 333.7311(f) because the evidence did
not show that respondent acted in bad faith, in violation of MCL 333.7333(1) and MCL
333.7405(l)(a).
The Board of Pharmacy DSC accepted in part and rejected in part the ALJ’s proposal for
decision. It accepted the conclusion that respondent failed to maintain adequate controls against
diversion, in violation of MCL 333.731 l(l)(e), but rejected the conclusion that respondent had
prescribed medication in good faith and had not violated MCL 333.731 l(l)(f). The DSC found
that the frequency of respondent’s prescriptions for hydrocodone with acetaminophen and
promethazine with codeine for a “large number of patients” was not in good faith. It further noted
that respondent put five patients, MB, JJ, SK, LL, and MO, on opioid medications without
discussing the risk factors for opioid-related harms shown in their MAPS reports. In addition, the
similarity in respondent’s prescriptions showed a lack of individualized treatment. The DSC relied
on the testimony of Cross and Dr. Nicolaou, in addition to other patients’ records, showing
prescriptions for hydrocodone with codeine and promethazine with codeine, which respondent
acknowledged. Thus, the DSC ordered respondent’s controlled-substance and drug-controllocation licenses revoked.
II. DISCUSSION
A. STANDARD OF REVIEW
“Rulings by disciplinary subcommittees of regulated professionals are reviewed on appeal
solely under Const 1963, art 6, § 28.” Bureau ofProfLicensing v Butler, 322 Mich App 460,464;
915 NW2d 734 (2017). Judicial review of administrative decisions “shall include, as a minimum,
the determination whether such final decisions, findings, rulings and orders are authorized by law;
and, in cases in which a hearing is required, whether the same are supported by competent, material
and substantial evidence on the whole record.” Const 1963, art 6, § 28. “When reviewing whether

-10-

an agency’s decision was supported by competent, material, and substantial evidence on the whole
record, a court must review the entire record and not just the portions supporting the agency’s
findings.” Dep’t of Community Health v Risch, 274 Mich App 365, 372; 733 NW2d 403 (2007).
“[A] reviewing court may not set aside findings merely because alternative findings also could
have been supported by substantial evidence on the record.” Dep’t of Licensing & Regulatory
Affairs v Gordon, 323 Mich App 548, 559; 919 NW2d 77 (2018) (quotation marks and citation
omitted). “Substantial evidence means evidence that a reasonable person would accept as
sufficient to support a conclusion. This may be substantially less than a preponderance of
evidence, but does require more than a scintilla of evidence.” Butler, 322 Mich App at 465
(quotation marks and citation omitted). “Deference must be given to an agency’s findings of fact,
especially with respect to conflicts in the evidence and the credibility of witnesses.” Huron
Behavioral Health v Dep’t of Community Health, 293 Mich App 491,497; 813 NW2d 763 (2011)
(citations omitted). “Moreover, an appellate court must generally defer to an agency’s
administrative expertise.” Dep’t of Community Health v Anderson, 299 Mich App 591, 598; 830
NW2d 814 (2013).
B. LEGAL STANDARD
Respondent argues that the ALJ made a substantial and material legal error by collapsing
together the legal standards governing violation of breach of duty and incompetence, and treating
the two charges as one, which he maintains fatally infected the ALJ’s decision. Although the
ALJ’s statement that the legal standards were indistinguishable was technically incorrect, we
disagree that this error was substantial and material.
MCL 333.16221(a) authorizes disciplinary action for “a violation of general duty,
consisting of negligence or failure to exercise due care . .. , whether or not injury results ....”
“Negligence is a well-recognized legal concept which describes conduct that falls below a standard
of reasonable or due care. A failure to exercise due care contemplates an abdication of
responsibilities or carelessness in executing one’s duties.” Sillery v Bd of Med, 145 Mich App
681, 686; 378 NW2d 570 (1985).
MCL 333.16221(b)(0 authorizes disciplinary action for incompetence. “Incompetence” is
defined as “a departure from, or failure to conform to, minimal standards of acceptable and
prevailing practice for a health profession, whether or not actual injury to an individual occurs.”
MCL 333.16106(1). In Gordon, 323 Mich App at 557, this Court determined what standard of
care to apply to evaluate whether the respondent was incompetent under MCL 333.16221(b)(0,
which was the only charge at issue in that case. The Court first concluded that the applicable
standard of care was that of a “psychologist” rather than a “counselor” because the respondent
practiced as a psychologist even though he was employed as a counselor. Id. at 561. The Court
next determined that it was not necessary to establish the standard of care because the respondent’s
conduct of allowing a patient to live with him was “so lacking of professional care” as to defy a
commonsense standard of care. Id. at 562-563.
The concepts of breach of duty and incompetence are similar but legally distinct.
Accordingly, the ALJ erred by stating that they were indistinguishable from each other. However,
the ALJ’s statement is better understood to mean that the facts supporting both charges are the
same and therefore it does not reflect a substantial and material legal error. Notably, this Court
-11-

has considered the charges of MCL 333.16221(a) and (b)(/) together and concluded that the
respondent violated both sections on the same factual basis. Anderson, 299 Mich App at 597.
Therefore, the ALJ did not legally err by considering the charges together.
Respondent cites Hegadorn v Dep’t of Human Servs Director, 503 Mich 231; 931 NW2d
571 (2019), to argue that a misapplication of the statute requires reversal. In Hegadorn, 503 Mich
at 268-269, our Supreme Court determined that the agency legally erred in its analysis of whether
the trusts at issue were countable assets for the purpose of determining Medicaid eligibility. The
Court declined to rule on the parties’ Medicaid eligibility and remanded the individual cases to the
agency for a determination regarding Medicaid eligibility because the original decisions relied
only on the erroneous analysis and “may have forgone consideration of alternative avenues of legal
analysis.” Id. at 269. This case is more akin to Consumer & Indus Servs v Greenberg, 231 Mich
App 466, 472; 586 NW2d 560 (1998), in which this Court ruled that the absence of adequate
evidence to support one charge under MCL 333.16221 was harmless error when the evidence
supported a violation of another section of MCL 333.16221 that authorized the same punishment.
Respondent raises no challenge to the factual basis for the ALJ’s conclusion that respondent
violated both MCL 333.16221(a) and (b)(i). By failing to argue that the facts supported neither a
violation ofbreach of general duty, MCL 333.16221(a), nor incompetence, MCL 333.16221 (b)(z),
respondent has not established that the AU’s treatment of the two charges as one was an error
requiring reversal.
Additionally, the ALJ’s analysis was consistent with the use of the CDC guidelines as a
benchmark to evaluate respondent’s conduct. Both MCL 333.16221(a) and (b)(i) require a
standard against which to evaluate respondent’s conduct. In this case, both parties agreed to the
ALJ’s reliance on the CDC guidelines. The guidelines advise clinicians to evaluate the benefits
and risks for patients before prescribing opioid medications and regularly thereafter, to review
patients’ histories of controlled substance use “when starting opioid therapy for chronic pain,” and
to avoid prescribing “opioid pain medication and benzodiazepines concurrently whenever
possible.” These guidelines informed the ALJ’s determinations that respondent did not adequately
justify concurrent prescriptions for hydrocodone and benzodiazepines and did not adequately
address the risk of abuse or diversion with patients who were previously given several opioid
prescriptions by several doctors. Respondent raises no challenge to the facts supporting the
charges in challenging the suspension of his medical license, and respondent’s challenge to the
ALJ’s legal analysis does not require reversal. Therefore, we affirm the Board of Medicine DSC’s
final order.
C. FAILURE TO MAINTAIN EFFECTIVE CONTROLS AGAINST DIVERSION
Respondent argues that the agency ignored evidence showing that respondent controlled
against diversion by prescribing no more than 30 MMEs per day, by ordering testing for patients,
and by running MAPS reports on every patient. None of these points warrant reversal. First,
respondent did not address the red flags present in MAPS reports with the five patients identified.
Second, drug screens for two patients were inexplicably negative, and respondent did not explain
whether or how he used these results to protect against diversion. Third, respondent managed the
risk of overdose by limiting MMEs, but respondent did not establish that this practice had any
effect on the possibility of diversion.

-12-

The ALJ concluded that respondent failed to maintain adequate controls against diversion,
in violation of MCL 333.733 ll(l)(e), because he gave five patients, MB, JJ, SK, LL, and MO,
opioid prescriptions without addressing “obvious risk factors for opioid-related harms” apparent
in their MAPS reports. Even crediting respondent’s testimony that he ran a MAPS report before
every patient visit, this testimony does not challenge the conclusion that the record contains no
indication that respondent discussed the risk factors apparent in these reports with the five patients
identified.
Beginning with MB, respondent testified that he discussed her prior prescriptions for
buprenorphine at her first visit in September 2016, but he expressed no interest in any of her other
prior prescriptions from previous providers in the preceding year, which included prescriptions for
hydrocodone with codeine, oxycodone, and alprazolam, all of which are highly abused and
diverted. For example, he did not answer definitively whether he discussed with her the 19
previous prescriptions for promethazine with codeine she had obtained since 2012, but he gave her
prescriptions for it at her second, third, and fourth visits in October, November, and December
2016. Although the notes stated that they discussed the risks and benefits of the narcotics
prescriptions, the notes did not mention MB’s prescriptions for controlled substances obtained
before seeing respondent. Respondent testified that he had a legitimate, medical reason for
prescribing promethazine with codeine, but this explanation does not address the absence of a
discussion with MB about the risk of abuse or diversion, which was indicated given her
prescription history.
Respondent testified that he saw JJ in November 2016 and December 2016 and that the
MAPS report was run in April 2017 when petitioner requested patient charts from respondent. JJ’s
MAPS report showed that, before seeing respondent, he had a prescription for carisoprodol in July
2016 and three prescriptions for oxycodone in July 2016, October 2016, and November 2016.
Even crediting respondent’s testimony that he ran a MAPS report before every visit, his testimony
showed no interest in JJ’s prior prescriptions for carisoprodol and oxycodone, two highly abused
and diverted substances, before respondent prescribed JJ hydrocodone with acetaminophen and
promethazine with codeine.
SK had obtained numerous prescriptions for carisoprodol, hydrocodone with
acetaminophen, and promethazine with codeine in the year before his first visit with respondent.
Respondent testified that he prescribed SK hydrocodone on SK’s first visit, but not his second
visit, and the notes from both visits state that respondent discussed the risks of opioid treatment
with SK.
Respondent acknowledged that LL had prior prescriptions for acetaminophen with
codeine, but he addressed those prior prescriptions only in terms of replacing them with a different
medication given that respondent did not like acetaminophen with codeine. Instead, respondent
prescribed hydrocodone with acetaminophen and promethazine with codeine. Respondent’s notes
stated that respondent discussed the risks of the new medications with LL.
MO’s MAPS report showed multiple prescriptions for controlled substances containing
codeine, hydrocodone, oxycodone, and alprazolam prescribed in some combination nearly every
month in the year preceding MO’s first visit with respondent. Respondent confirmed that he ran
MAPS reports for the first two of three visits, and he wrote MO prescriptions for hydrocodone and

-13-

for promethazine with codeine. The notes also reflect a discussion of the risks of opioid treatment
at MO’s first and third visits.
These records all suffer from the same deficiency. Each patient had previously obtained
prescriptions from multiple providers for various highly abused and diverted substances. Although
respondent testified that he reviewed MAPS before seeing each patient, his notes contained no
indication that he discussed patients’ prescription histories with them, even though his notes stated
that they discussed the risks of opioid treatment. Nor did respondent testify that he discussed with
any of these patients their prior prescription histories and the risk of abuse or diversion.
Respondent’s testimony that he reviewed the MAPS reports before every visit does not establish
otherwise. In sum, these five patient records support the ALJ’s findings regarding the inadequacy
of respondent’s discussions with patients about the risk of diversion on the basis of the MAPS
data.
Respondent testified about ordering drug screens for patients, but the evidence does not
show that he used the results of this testing to assess or discuss the patients’ risk factors for abuse
or diversion. For example, respondent ordered urine testing for MB at her first visit, but she did
not provide a sample until a subsequent visit, and it was negative. Respondent testified that he
generally discussed lab results with patients at their next visit, but he did not testify that he did so
with MB. Respondent also ordered urine testing for LL on LL’s last visit. The results were
negative for all substances. Respondent offered a hypothetical explanation for negative results,
but he was not able to discuss the results with LL, who did not return to respondent’s office. LL’s
failure to return after submitting to a drug screen lends support to the conclusion that could be
drawn from LL’s MAPS report that LL was “doctor shopping” to obtain controlled substances for
diversion because LL would have known that the drug screen would be negative. In short,
respondent did not establish that he used drug screens to control against diversion when the record
contains no indication that he discussed results with patients.
Respondent testified that he prescribed a maximum of 30 MMEs per day to avoid the risk
of overdose. This practice assumes that respondent’s patients were taking medication only as
prescribed. Additionally, this rationale does not address concerns about diversion. Dr. Nicolaou
testified that low MMEs was not a control against diversion because even low MME drugs, such
as cough syrup with codeine, were abused and diverted. Waldmiller echoed that promethazine
with codeine was highly abused and diverted, even with its low MME. Therefore, respondent did
not establish that limiting MMEs bore any relevance to controlling against diversion.
Respondent argues that hydrocodone and codeine work differently in the body’s pain
receptors, contrary to Dr. Nicolaou’s testimony. Respondent testified that promethazine is an
antihistamine that opens and dries the airway, while codeine treats cough by acting on the mu two
receptor in the lung, and hydrocodone treats pain by working on the mu one receptor associated
with pain. Respondent’s explanation for how each chemical operates does not address Dr.
Nicolaou’s testimony that combining hydrocodone with acetaminophen and promethazine with
codeine increases the risk of respiratory failure. Waldmiller also testified that different products
can be used to treat coughs, depending on the source of the cough, and that prescribing
hydrocodone with acetaminophen in conjunction with promethazine with codeine to treat cough
was duplicative. Further, respondent’s argument again assumes that patients are only taking the
medications he has prescribed in the manner prescribed. In light of the individual MAPS data

-14-

about the five patients previously discussed, it is not clear how respondent’s testimony about the
mu receptors undermines the ALJ’s conclusion that the record contains no indication that
respondent discussed patients’ prescription histories with them.
Respondent notes that Dr. Nicolaou was an emergency medicine physician who was not
board-certified in addiction or pain medicine and had little contact with addiction patients, unlike
respondent. Respondent does not challenge Dr. Nicolaou’s expert qualification to testify about the
practice of medicine in general. Moreover, the ALJ found in respondent’s favor on several
practices that Dr. Nicolaou criticized. For example, the ALJ rejected petitioner’s allegations that
respondent should have taken an incremental approach to prescribing opioids, that respondent
should have started treatment with nonopioid therapy, that respondent’s notes inadequately
summarized patients’ diagnoses and treatment plans, and that respondent’s use of templates to fill
in notes evidenced a lack of individualized treatment. The ALJ’s findings regarding respondent’s
failure to maintain effective controls against diversion largely came from the MAPS data,
introduced through Waldmiller’s testimony, and from respondent’s testimony about that data and
the patients’ medical records. Respondent has not identified a shortcoming in the agency’s
findings related to Dr. Nicolaou’s expertise.
In sum, respondent has not established that competent, material, and substantial evidence
did not support the ALJ’s conclusion that respondent did not maintain effective controls against
diversion because respondent did not address the prescription histories of the five patients.
D. FAILURE TO PRESCRIBE CONTROLLED SUBSTANCES IN GOOD FAITH
Respondent argues that substantial evidence does not support the DSC’s conclusion that
respondent was not writing prescriptions in good faith because the DSC erroneously relied on
uncorroborated MAPS reports to find that respondent frequently prescribed hydrocodone with
acetaminophen and promethazine with codeine to a large number of patients. Petitioner counters
that the DSC referred only to the MAPS reports for respondent’s acknowledged patients.
Petitioner is partially incorrect, but the DSC’s finding regarding a large number of patients does
not require reversal because it is consistent with record evidence.
Petitioner is correct that the DSC relied on the MAPS data for respondent’s acknowledged
patients, but the DSC drew a broader conclusion from this data. Nonetheless, respondent does not
identify evidence contradicting the broader conclusion. At the merits hearing, petitioner
introduced the records of the 10 unidentified patients whom respondent acknowledged were his
patients. This data showed that respondent prescribed all 10 of them hydrocodone with
acetaminophen and promethazine with codeine from the fall of 2016 through 2017 and in early
2018. Respondent admitted that this data was consistent with his general practice. Specifically,
he testified that he typically prescribed eight ounces of codeine cough syrup and 60 tablets of
Norco, rather than 90, when he prescribed them concurrently. The DSC relied on this data and on
respondent’s admission regarding his typical practice to extrapolate beyond the 10 patients to a
“large number of patients.” Waldmiller testified that MAPS data showed that 87% of respondent’s
prescriptions between March 2018 and August 2018 were for hydrocodone with acetaminophen.
Waldmiller and Dr. Nicolaou both testified that this frequency raised the question whether
respondent was providing appropriately individualized treatment. Waldmiller additionally stated
that “[djozens” of pain medications were available and that pain specialists typically prescribed a
-15-

wider range of pain medications than respondent prescribed. Respondent’s primary challenge to
this data was to argue that some of the prescriptions were fraudulently attributed to him, and he
offered an example of one patient who received prescriptions for hydrocodone with acetaminophen
and promethazine with codeine wrongfully attributed to respondent. Respondent also stated that
doctors often prescribe similar medications that they are comfortable prescribing. That is,
respondent did not contest the overarching concern that he frequently prescribed hydrocodone with
acetaminophen and that the frequency of this prescription was inconsistent with individualized
treatment. For example, beyond arguing that some of the prescriptions were fraudulent and that
he modulated the effect of concurrent prescriptions by reducing the quantity of hydrocodone with
acetaminophen, respondent did not claim that he prescribed other substances. Additionally, the
DSC did not rely on the exact statistic of 87% introduced by petitioner, reflecting an
acknowledgment that some of the prescriptions attributed to respondent were fraudulent. This
data, in combination with respondent’s admission that it reflected his general practice, supports
the DSC’s conclusion that respondent frequently prescribed the same substances to many patients.
Respondent challenges the MAPS statistics by arguing that they included prescriptions for
oxycodone, oxymorphone, and two-milligram alprazolam, which he did not write. Respondent
presented the same defense throughout the administrative hearing, and petitioner agreed that these
prescriptions should not be attributed to respondent. Neither the ALJ’s findings nor the DSC’s
findings referred to these prescriptions. Therefore, respondent has not identified a flaw in the data
or the conclusions reliant on this data from MAPS warranting reversal.
Respondent challenges the DSC’s reliance on Cross’s testimony regarding fake coughs.
Cross also testified that respondent saw patients in groups and wrote prescriptions before seeing
patients. Respondent sought to rebut this testimony with the testimony of three of his current
employees who testified that he did not see patients in groups or write out prescriptions beforehand.
However, “resolving conflicts in the evidence by making credibility determinations is not a basis
for reversal of an administrative action.” Anderson, 299 Mich App at 599. Nor does respondent
challenge on appeal Cross’s testimony about seeing patients in groups or writing prescriptions in
advance, practices that Dr. Nicolaou testified fell below the standard of care. Even if the DSC
should have disregarded Cross’s testimony about fake coughs, respondent’s other practices
described by Cross were rightfully concerning.
In sum, the Board of Pharmacy DSC’s conclusion regarding respondent’s general
prescription practice was supported by competent, material, and substantial evidence on the whole
record.
Affirmed.

Is! Mark J. Cavanagh
/s/ David H. Sawyer
/s/ Michael J. Riordan

-16-

Order

Michigan Supreme Court
Lansing, Michigan

March 30, 2021

Bridget M. McCormack,

)

161537-8 & (46)

Chiefjustice

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,
Justices

In re SOLOMON ADU-BENIAKO, M.D.
DEPARTMENT OF LICENSING AND
REGULATORY AFFAIRS,
Petitioner-Appellee,
v
SOLOMON ADU-BENIAKO, M.D.,
Respondent-Appellant.

SC: 161537
COA: 348668
Bd of Medicine: 18-007018

In re SOLOMON ADU-BENIAKO, M.D.

f

DEPARTMENT OF LICENSING AND
REGULATORY AFFAIRS,
Petitioner-Appellee,

i

v
SOLOMON ADU-BENIAKO, M.D.,
Respondent-Appellant.

SC: 161538
COA: 349754
LARA Bureau of Professional
Licensing: 18-002838

On order of the Court, the motion to amend application is GRANTED. The
application for leave to appeal the May 14, 2020 judgment of the Court of Appeals is
considered, and it is DENIED, because we are not persuaded that the questions presented
should be reviewed by this Court.

$
*

I

a

1, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 30,2021

t0322

Clerk

Additional material
from this filing is
available in the
Clerk's Office.

